<html>
<title> - FEMA'S NATURAL DISASTER PREPAREDNESS AND RESPONSE EFFORTS DURING THE CORONAVIRUS PANDEMIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  FEMA'S NATURAL DISASTER PREPAREDNESS
                      AND RESPONSE EFFORTS DURING
                        THE CORONAVIRUS PANDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2020

                               __________

                           Serial No. 116-107

                               __________

      Printed for the use of the Committee on Oversight and Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-186 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------





                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
                    Britteny Jenkins, Chief Counsel
                       Cameron MacPherson, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Rashida Tlaib, Michigan              Mark E. Green, Tennessee, Ranking 
Raja Krishnamoorthi, Illinois            Minority Member
Jackie Speier, California            Paul A. Gosar, Arizona
Jimmy Gomez, California              Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Kelly Armstrong, North Dakota
                                     Fred Keller, Pennsylvania
                        

                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 24, 2020....................................     1

                               Witnesses

Peter T. Gaynor, Administrator, Federal Emergency Management 
  Agency
Oral Statement...................................................     5

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

No additional documents were entered into the record during this 
  hearing.


 
                  FEMA'S NATURAL DISASTER PREPAREDNESS
                      AND RESPONSE EFFORTS DURING
                        THE CORONAVIRUS PANDEMIC

                              ----------                              


                         Friday, July 24, 2020

                   House of Representatives
            Subcommittee on the Environment
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 9:08 a.m., in 
room 2154, Rayburn House Office Building, Hon. Harley Rouda 
(chairman of the subcommittee) presiding.
    Present: Representatives Rouda, Tlaib, Speier, and Comer.
    Also present: Representatives Maloney, Velazquez, and 
Plaskett.
    Mr. Rouda. The committee will come to order. I would like 
to point out that we are glad to have Representatives Velazquez 
and Plaskett join us today and join us in the questioning as we 
pursue this hearing.
    I now recognize myself for a five-minute opening statement.
    I am con seeing today's subcommittee hearing to examine 
preparations by FEMA for responding to and helping our Nation 
recover from natural disasters, which this year will overlap 
with the Nation's ongoing efforts to combat the coronavirus 
pandemic.
    FEMA is the lead Federal agency responsible for 
coordinating preparation, prevention, mitigation, response, and 
recovery efforts for all domestic disasters, including the 
ongoing coronavirus pandemic.
    In event years, FEMA has struggled to anticipate the 
severity of multiple disasters due, in part, to climate change, 
secure advanced contracts for supplies, and retain and deploy 
key personnel. As the United States continues to respond to the 
coronavirus pandemic in a recent surge in cases across the 
country, it is clear that this unprecedented moment has left 
all of us, including FEMA, in unchartered territory.
    People have often called the year 2020 apocalyptic, 
although some say that is an exaggeration or said in jest, it 
certainly, at times, does feel like we are not too far off from 
the truth. More than 140,000 Americans have lost their lives 
due to the current administration's lack of leadership, 
distrust of science, and continued hesitation to meet the 
seriousness of the challenges associated with the coronavirus 
pandemic and because of this complete lack of leadership and 
inept response by the managers, tens of thousands more will 
die.
    All of this is a horrifying loss of life, wasn't tragic 
enough. We know that climate change is increasing the frequency 
and intensity of extreme weather events, setting that stage to 
lose even more American lives as a result of natural disasters 
in coming months, therefore, it is absolutely imperative that 
Congress and the American public understand the steps that FEMA 
is taking to prepare for and respond to natural disasters, 
including hurricanes, wildfires, flooding, and extreme heat, on 
to have of nationwide effort to slow and stop the spread of the 
coronavirus.
    The 2020 hurricane condition began on June 1 and the 
National Oceanic and Atmospheric Administration forecasters 
expect 13 to 19 named storms, increasing six to ten hurricanes, 
and three to six major hurricanes. Residents in states known to 
be hit hardest by hurricanes like Florida and North Carolina 
are facing some of the highest rates of confirmed cases of 
COVID-19 and this year's predicted higher-than-average 
hurricane season increases the chances of large evacuations of 
people to northern states like New York and New Jersey; areas 
previously hit hard by the virus, which would cause the 
potential for an increase in the spread in those states.
    For those who are low-wealth and forced to stay and seek 
emergency shelters since they do not have the means to 
evacuate, overcrowded shelters, from school gyms to convention 
centers, risk becoming infection hotspots. The current serious 
lags in COVID-19 testing, if not fixed, could very well lead to 
asymptomatic people who have coronavirus staying in the 
shelters. And many of the same people who have less access to 
health care, less health insurance are more likely to have 
unknown or uncontrolled comorbidities, may be at higher risk of 
death or complications from COVID-19. These are prime examples 
of how climate change acts as a threat and multiplier during 
public health crises.
    Over the last five years, the U.S. has seen more federally 
declared disasters for wildfires than in many previous prior 
years. In 2017 and 2018 California experienced the deadliest 
and most destructive wildfires of its history and this year's 
weather patterns are lining up to result in above-average fire 
activity.
    Wildfire-related risks are particularly high in places like 
my home state of California, and in recent weeks, these areas 
have also seen staggering COVID-19 case numbers continue to 
rise. This is of significant concern because both, smoke and 
COVID-19, negatively impact our respiratory and cardiovascular 
systems. In fact, we know that wildfires exacerbate respiratory 
and lung conditions, especially for children, older adults, and 
those with underlying conditions, such as asthma, chronic heart 
disease, and diabetes, many of the comorbidities known to 
increasing negative health outcomes and mortality rates among 
those infected with the coronavirus.
    And while cloth masks can help prevent the spread of 
coronavirus, these kinds of face coverings do not offer 
protection from smoke; only properly fitting N95 masks filter 
out dangerous particles. And we have seen those remain in short 
supply in many places, including wildfire-prone regions.
    Then there is the extreme heat. No other year in recorded 
history has been as hot as the years between 2014 and 2019 and 
2020 has a high likelihood of being the hottest year on record 
and this is likely to pose additional challenges to COVID-19 
mitigation efforts. When it gets incredibly hot, low-wealth 
households who do not have access to air-conditioning or who 
cannot afford to turn it on, may flock to cool and crowded 
indoor areas, which could result in an increase in coronavirus 
cases.
    As we sit here today, every state in the United States is 
currently facing a budget shortfall; as a result, many states, 
territories, and local governments may be more dependent on 
FEMA for supplies and personnel than in recent years. In the 
middle of a respiratory pandemic, we need to know what steps 
are being taken to safeguard the lives of both, FEMA personnel 
and disaster survivors. We need answers as to whether or not 
critical medical supplies will be accessible for communities in 
need. We need to understand how plans are being adapted to 
account for simultaneous disasters. We need to be ready, able, 
and willing to address increasingly likely worst-case 
scenarios, and we need to help FEMA so they can be fully 
prepared to meet their mission.
    As the saying goes, by failing to prepare, you are 
preparing to fail. In this moment, our Nation's challenges are 
unprecedented and extraordinary, and our plans and actions must 
rise to meet the seriousness and grave reality we face now and 
in the coming months and years.
    Let me put it bluntly, the topics we are discussing today 
are literally matters of life and death.
    I appreciate FEMA Administrator Gaynor's participation in 
this hearing, and I hope that today's discussion will help 
inform and support the critically important work FEMA is tasked 
with, because the stakes truly could not be higher. Thank you.
    I invite ranking member of the committee and acting ranking 
member of the subcommittee, Mr. Comer to give a five-minute 
opening statement.
    Mr. Comer. Thank you, Chairman Rouda.
    For the second time, I am not going to fact-check all the 
slanderous, op-ed opinions that were made about the Trump 
administration in the beginning of your opening statement, 
because this is an important hearing.
    I am very glad to participate in person for this hearing. 
The business of this committee cannot be done virtually, and I 
hope we will continue working for the American people, here in 
D.C., as we promised to do.
    I want to thank Administrator Gaynor for testifying today. 
I know that you are an extremely busy man, but I am interested 
to learn about the good work that FEMA has been doing in 
response to COVID-19.
    The COVID-19 pandemic has affected more than 3.8 million 
Americans and has tragically killed more than 140,000. Through 
President Trump's leadership, FEMA has responded swiftly to 
this virus. On March 13, President Trump declared a national 
emergency, pursuant to Section 501(b) of the Stafford Act.
    After this emergency declaration, all states and U.S. 
territories requested major disaster declarations. To date, all 
50 states, five U.S. territories, and the District of Columbia 
have been approved for major-disaster declarations.
    According to FEMA, a major-disaster declaration provides a 
wide range of Federal assistance programs for individual and 
public infrastructure, including funds to both, emergency and 
permanent work.
    As head of the White House Coronavirus Task Force, Vice 
President Pence designated FEMA as the lead agency for Federal 
response to the pandemic on March 19. FEMA transitioned into 
this new role seamlessly and prioritized to protect the health 
and safety of all Americans by utilizing a Whole-of-Government 
and Whole-of-America approach.
    After this announcement, FEMA activated the National 
Response Coordination Center, NRCC, to its highest level. The 
NRCC became the focal point of Federal interagency coordination 
efforts.
    FEMA has done a tremendous job in their response to the 
COVID-19 pandemic and I want to highlight a few numbers to 
support that. As of July 17, FEMA, HHS, and the private sector 
coordinated delivery of or are currently shipping 189 million 
N95 respirators, 784 million surgical masks, 33 million face 
shields, 341 million surgical gowns, coveralls, and over 20 
billion gloves. As of July 21, FEMA delivered 29,891 medical 
supplies to nursing homes in 52 states and territories.
    With regards to testing, as of July 20, CDC, state, local, 
public health labs, and other laboratories have tested more 
than 48.6 million samples. While these numbers are impressive, 
I look forward to hearing more about plans for the United 
States to produce more life-saving equipment for frontline 
workers. This equipment has traditionally been manufactured in 
other countries, which FEMA has described as a national 
security issue.
    Federal funding has also played a large part in the 
response to this crisis. As of July 17, FEMA and HHS have 
combined, have committed to $135.9 billion in support of COVID-
19 efforts.
    In terms of staffing, as of July 22, FEMA has 2,245 
employees supporting COVID-19 pandemic response out of a total 
of 20,831 agency employees ready to respond to any other 
potential emergencies. These are truly staggering numbers and I 
applaud the work that FEMA has done as the lead agency in 
charge to the Federal Government's response to COVID-19.
    FEMA is currently responding to 114 active disasters and 97 
emergency declarations concurrently. I look forward to hearing 
more specific details about how FEMA will continue to prepare 
for the natural-disaster season while maintaining its good work 
battling COVID-19.
    Thank you, Mr. Chairman, and I look forward to today's 
testimony.
    Mr. Rouda. Thank you, Ranking Member Comer.
    Now, I would like to introduce our witness. It is my honor 
to recognize our witness, the honorable Peter T. Gaynor, who is 
the Administrator at the Federal Emergency Management Agency.
    The witness will be unmuted so we can swear him in. Please 
raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth 
so help you God?
    Mr. Gaynor. I do.
    Mr. Rouda. Thank you. Has please sit down.
    Let the record show that the witness answered in the 
affirmative.
    Without objection, your written statement will be made a 
part of the record.
    With that, Administrator Gaynor, you are now recognized for 
your testimony.

  STATEMENT OF PETER GAYNOR, ADMINISTRATOR, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Gaynor. Thank you, sir.
    Good morning, Chairman Rouda, Ranking Member Comer, and 
distinguished members of the subcommittee. My name is Pete 
Gaynor and I am the FEMA administrator.
    Thank you for this opportunity to discuss the actions taken 
by FEMA to protect the health and safety of the American people 
during the COVID-19 pandemic, as well as the agency's ongoing 
efforts to enhance disaster preparedness within a COVID-19 
environment.
    On behalf of the men and women of FEMA, I would like to 
begin by offering my condolences to the loved ones of the 
144,305 Americans who have lost their lives to COVID-19. One 
life lost is one life too many and our hearts go out to all 
those that have been affected by the pandemic. This has been a 
trying time for our country and FEMA has been working around 
the clock to help our Nation respond to this global pandemic 
and recover from other natural disasters.
    As the FEMA administrator, it has been my honor to work 
alongside dedicated professionals of FEMA. Today I want to 
acknowledge that work force and our many partners for their 
commitment to the Nation during this response. The response to 
COVID-19 pandemic and other natural disasters will continue to 
be locally executed, state-managed, and federally supported.
    The President has made an unprecedented decision to declare 
a nationwide emergency on March 13 and since that time, the 
entire team has worked tirelessly to make a positive impact; 
many have risked their own health and safety to do so. For the 
first time in American history we have a major disaster in 
every state, territory, the District of Columbia, and one tribe 
concurrently.
    Today, FEMA has responded to 114 active disasters, 97 
emergencies from the Pacific island of Saipan, to the U.S. 
Virgin Islands, and all across the American Heartland.
    The magnitude of this pandemic and other concurrent 
disasters has required FEMA to both, re-examine our past 
practices and reduce risks to our staff as much as possible 
while accomplishing our mission.
    During more common natural disasters, FEMA typically 
manages an abundance of resources for events that are limited 
in geographic scope and impact. In responding to COVID-19 and 
other natural disasters in 2020, FEMA has met the more 
difficult task of managing finite medical supplies and 
equipment; rather than managing resources, we are managing 
shortages.
    We have worked tirelessly to find medical supplies and 
equipment across the globe and rapidly move them to America 
with the goal of providing temporary relief until supply chains 
could begin to stabilize. In addition to expediting supplies 
into the United States, the Federal response has focused on 
stabling the lives of Americans in many impactful ways.
    Since March 13, we have provided over $8.4 billion in 
obligations under the Stafford Act to states for COVID-19 
related activities with the first $1 billion obligated in just 
11 days. Over $1 billion has been allocated to both, California 
and New York, alone. And $1.7 billion has been allocated in 
support of Title 32 National Guard troops, as well as the 
deployment of 5,300 DOD, Title 10 medical professionals who 
have provided critical medical support to numerous hospitals 
under stress.
    While we continue to respond to COVID-19, we want to ensure 
that we are using all available resources to address these 
critical shortfalls. To do so, the Federal Government has 
utilized the Defense Production Act to increase the amount of 
medical equipment manufactured domestically to ensure our 
Nation's future preparedness is not overly reliant on foreign 
producers.
    This increase of domestic manufacturing will also allow 
FEMA to pivot toward hurricane season preparations, as well as 
other natural disasters. Operating in overlapping disaster 
environments will create new challenges. Evacuating people 
within the COVID-19 environment would require the widespread 
availability of non-congregate sheltering so that social 
distancing can be observed wherever possible. Critical supplies 
like ventilators, PPE, and other key pharmaceuticals located in 
the path of hurricanes, will have to be secured to ensure they 
remain available for use.
    As part of this pivot to prepare for other disasters, FEMA 
recently released a planning guide for the 2020 hurricane 
season to help local officials best prepare for more common 
disasters within the context of a pandemic. The operational 
guidance is scalable, flexible, and functions as an all-hazards 
planning document. While this document focuses on hurricane 
season preparedness, these planning considerations can also be 
applied to any disaster operation in the COVID-19 environment 
to include no-notice incidents and wildfire responses.
    To further increase FEMA's readiness to support partners 
during overlapping disasters, our agency continues to expand 
its work force. Since the beginning of this fiscal year, the 
FEMA has successfully onboarded more than 2,300 new disaster 
personnel, which is an increase of over 22 percent from Fiscal 
Year 2019. Many of these new personnel have been onboarded 
during our COVID-19 response while adhering to pandemic-safety 
protocols.
    Additionally, last year, FEMA introduced a requirement for 
states and territories to develop a distribution management 
plan under the Emergency Management Performance Grant Program. 
As a result, all 56 states and territories have individualized 
plans that focus on commodity distribution, transportation best 
practices, and as a result, FEMA personnel will be better-abled 
to expeditiously contract and distribute goods and services to 
disaster survivors.
    In addition to preparing for future disasters within the 
context of a pandemic, FEMA also remains committed to helping 
our partners recover from past events; for example, FEMA and 
its Federal partners have provided historical levels of support 
for the Commonwealth of Puerto Rico during the ongoing recovery 
from Hurricanes Irma and Maria.
    Since 2000 or mid-2000 to 2019, FEMA has gone from funding 
between 10 and 15 permanent work projects per month to an 
average of 550 projects per month. FEMA has obligated more 
funding for emergency work in Puerto Rico than in Texas from 
Hurricane Harvey and Florida from Hurricane Irma, combined.
    Our streamlined services have accelerated the awards 
process and to date, the Federal Government has provided more 
than $25 billion toward the response and recovery efforts in 
Puerto Rico.
    Regardless of the challenges that FEMA will continue to 
confront, the bedrock of our mission remains constant: to 
protect the American people before, during, and after 
disasters.
    The framework by which we accomplish this remains 
unchanged. Responses are most effective when locally executed, 
state-managed, and federally supported.
    The Nation is counting on us to accomplish our mission and 
we will do so in accordance with our core values of compassion, 
fairness, integrity, and respect. This unprecedented response 
to the COVID-19 pandemic will continue to require a Whole-of-
America effort and FEMA looks forward to coordinating closely 
with Congress as we work together to protect the lives of the 
American people.
    I would like to thank the committee for the opportunity to 
testify today and I look forward to any questions you may have. 
Thank you.
    Mr. Rouda. Thank you, Administrator.
    Without objection, the gentlewoman from the state of New 
York and the gentlewoman from the U.S. Virgin Islands shall be 
permitted to join the subcommittee on the dais and be 
recognized for questioning the witness.
    With that, I would like to recognize the vice chair of the 
subcommittee, Congresswoman Tlaib for five minutes of 
questioning via WebEx.
    Congresswoman Tlaib?
    Ms. Tlaib. Thank you, Chairman, and thank you so much to 
the administrator for joining us, especially during this very 
difficult time for so many Americans across the country.
    I do want to just be really direct with you, Administrator, 
you know, I had this line of questions to talk about national 
disasters, but I feel just compelled to tell you, as I hear my 
colleagues talk about the approach and the fact that, you know, 
we have done all this work to try to combat the pandemic, one 
of the statistics in my state is very alarming and I want to 
talk about this, specifically, since we are talking about 
vulnerable communities.
    You know, more of my Black neighbors died of COVID than in 
any other community; 40 percent of those that died from COVID 
in Michigan were African American, even though they make up 
less than 15 percent of the total population in the whole state 
of Michigan. I am just curious as to what have you all done, 
how intentional are you in making sure that you are covering 
communities that are predominantly black and brown, in regard 
to how you approach this pandemic?
    Mr. Gaynor. Yes, ma'am. Thank you for the question.
    So, as an emergency manager, I've been doing this for 
almost 13 years at the local, state, and now Federal level, and 
I've learned that when there's pre-existing challenges in a 
community before a disaster and whether it's poverty or 
homelessness, unemployment, medical care, the disaster that 
comes next, and it can be any disaster, it just makes all of 
those conditions much worse.
    We knew that early on in COVID-19 and that's why I think we 
took an aggressive approach with our authorities, and so some 
of the things we've done across the country include, and one of 
the first things, and this is one of the things that we had not 
done in a disaster before, is we issued a--I have an Office of 
Equal Rights--we issued a civil rights bulletin early on that 
made sure that individuals, communities, advocacy groups had 
ample----
    Ms. Tlaib. I understand.
    Mr. Gaynor [continuing]. Opportunities to raise concerns 
and receive information. We also have food programs----
    Ms. Tlaib. Administrator----
    Mr. Gaynor [continuing]. That states----
    Ms. Tlaib. Yes.
    Mr. Gaynor [continuing]. Are using, housing programs, and 
testing programs across the country, so----
    Ms. Tlaib. I understand.
    Administrator, one of the things--and I am so glad you are 
talking about the conditions that existed prior to the pandemic 
and the fact that we have these broken systems that are 
structurally racist and do not include every single person that 
lives in the United States--I do want to ask you, but, you 
know, I heard in a different committee, I cannot remember when 
it was, but we heard one of the folks come in and say that 
during Katrina, they were very aggressive, and this was during 
the Obama Administration, just very aggressive about giving 
people direct debit cards to get food assistance to be able to 
get, you know, diapers and formula, was a huge barrier during 
that time.
    So, even though we want to claim that we want civil rights 
for everyone, that we are going to have this policy with these 
task financial advisors to study us, I do not think it is 
actually resulting in taking care of our most vulnerable that 
have already been, as you just recognized, already not having 
access to health care, environmental racism with pollution and 
pre-existing conditions, all of those things, which have, you 
know, homelessness or a lack of assisted housing, all of that 
is to say that we need to be--and this is a pandemic--that FEMA 
should be doing a lot more direct contact with these 
communities, beyond just statements that you don't want them to 
get hurt more than anyone else.
    The fact of the matter is they are and you have 
acknowledged that there is all these other conditions and, 
really, they are systems; they are systems that have been 
broken for a long time and no one has paid attention to them. 
And I think that is why we see this uprising across our 
country.
    But, Administrator, I want to urge you as someone that 
represents not only a part of the city of the Detroit, but even 
11 communities throughout Wayne County, I hear all the time, if 
it is not just alone on the flooding, that I know you all have 
been working closely with me and part of my community, but it 
is also during this pandemic, acknowledging that you all have 
access to resources to waive, you know, cost-sharing 
requirements for the SAFER grants. You didn't do it 
retroactively.
    So, communities like Inkster, which is predominantly black, 
are now having to cut city services and keeping our citizens 
safe because you all decided not to do that, or to push against 
this whole 100 percent reimbursement. Again, when we do that 
and help local governments, which are really touching the lives 
directly to communities of color, we are short-changing them. 
They are already in survivor mode, Administrator, and you know 
this.
    We have to be doing more and it has to be beyond just, you 
know, statements and Civil Rights Division and so forth, and I 
appreciate that, but this is time and years we can't get back. 
People are dying and they are getting sick and they don't have 
access to resources, as you acknowledged, because of the 
systems that have been set up against them.
    So, I just really appreciate this, Chairman, and 
Administrator, I hope you hear me, this is very genuine, please 
help black and brown communities. They are dying at a higher 
rate and we need to do more in this country.
    Thank you and I yield.
    Mr. Gaynor. Thanks, ma'am.
    If I could just followup on a couple of questions. First of 
all, I used to live in Detroit, so I understand some of the 
challenges, locally, that they have. So, cost share, we are 
looking actively. It's under active examination; again, 
unprecedented response to COVID-19. Never before in the history 
of the country or the history of FEMA have we had every single 
state, territory, a tribe, and the District of Columbia with a 
major disaster. So, we're looking at cost share and I'm in 
active conversations with the task force and with the 
administration.
    As for the SAFER grant reference, we actually waived, and 
I'll be happy to get you this bulletin, the Secretary of 
Homeland Security waived Fiscal Year 2019 and 2020, blanket 
waivers for those grants. So, we waived cost share, we waived 
salary cap, we waived supplanting for all of those grants to 
make sure that we could retain and rehire our firefighters.
    So, if your staff reaches out to me or my staff, we'd be 
happy to help you understand what we did for SAFER grants. 
Thank you, ma'am.
    Mr. Rouda. Thank you. The Chair now----
    Ms. Tlaib. Thank you.
    Mr. Rouda [continuing]. Recognizes Ranking Member Comer for 
five minutes of questioning.
    Mr. Comer. Thank you.
    Administrator, can you briefly describe the early actions 
taken by FEMA at the onset of the COVID outbreak.
    Mr. Gaynor. Yes, sir.
    Again, an unprecedented time for the country and for FEMA. 
On March 13, the President declared a nationwide disaster, 
which, again, gave everyone a major disaster. Actually prior to 
that, more than a month, FEMA had been in support of Health and 
Human Services in their fight against COVID.
    As we transitioned, as we learned more, as the disease 
progressed and became larger, the President directed FEMA to 
lead Federal coordinating operations. That was on March 18. On 
that very night I moved all HHS, CDC, and other members to our 
National Response Coordination Center. I also did that out in 
the 10 regions that I have across the country, as far west as 
American Samoa and as far east as the U.S. Virgin Islands to 
make sure that we had a coordinated response to COVID-19.
    Mr. Comer. Great. How has FEMA evolved its response from 
the middle of March to today?
    Mr. Gaynor. Yes, sir.
    So, we're in a, you know, this is a dynamic situation. The 
disease has changed over time. If you remember back to March 
and April, you know, the epicenter was New York, New Jersey, 
Connecticut, some New England states, Detroit, Chicago, 
Louisiana, Los Angeles. So, all that happened and then now 
it's, and, again, when you look at how we dealt with COVID-19, 
we actually did it by counties and that's where we focused our 
effort, not just generally by state, but by counties.
    Mr. Comer. Right.
    Mr. Gaynor. And now we look at the Sunbelt outbreak; it's a 
different kind of outbreak----
    Mr. Comer. Right.
    Mr. Gaynor [continuing]. Where it's seated in most 
counties, so it's much wider than it is, and so, we've adapted, 
as we move through it, and we'll continue to adapt as we 
understand it more.
    So, where the initial outbreak, and I'll just use New York 
as an example, you know, we needed surge capacity, we needed 
PPE, we needed pharmaceuticals, we needed vents. Today it's 
really, and I have talked to most all the Governors in the 
outbreak states and their emergency managers, it's really about 
staffing, staffing and hospitals to give some relief to those 
critical frontline workers that we depend on.
    Mr. Comer. Can you detail the most important strategies 
discussed in FEMA's 2020 hurricane season operation guidance?
    Mr. Gaynor. Yes, sir.
    One of the things we knew early on, you know, in March, 
that hurricane season was coming and we made a deliberate 
effort to collect lessons learned, partnered with CDC and ASPR 
and other medical professionals to collect best practices, look 
at planning in detail, and in mid-May, May 20, we issued the 
2020 operational guidance for the COVID-19 and hurricane 
season.
    And what we have been encouraging since then is that 
states, tribes, territories, local governments look at their 
existing plans and apply the lessons learned of COVID-19. And 
I'll just give you a couple of examples, you know, it is a 
complicated response on a good day for a hurricane, not in 
COVID-19, it can be complicated. It will be further complicated 
by the considerations of COVID-19 when you think about 
evacuations, sheltering, and needing more space, needing more 
time.
    Mr. Comer. Right.
    Mr. Gaynor. So, we're asking everyone to lean in. I just 
came back from a seven-day, a six-day tour of the Gulf Coast, 
Louisiana, Mississippi, Alabama, and checking out how those 
states were doing. It is pretty impressive how much work has 
been done at the local, state, and tribe levels.
    So, I have confidence that emergency mayors across the 
country, whether it is hurricanes or wildfires, flooding, or 
tornados are embracing those best practices.
    Mr. Comer. So, these planning operations can be applied to 
any disaster operation during the COVID-19 pandemic?
    Mr. Gaynor. Yes, sir. And, you know, we did a couple 
different things. We'd like to think of ourselves as flexible, 
so we built a pandemic guide for hurricane season, but we also 
took a deeper dive with an additional guide a couple of weeks 
later entitled, Mass Care, Assistance Pandemic Planning 
Considerations, things that will be probably most problematic 
in a disaster.
    So, you're thinking about wildfire evacuations----
    Mr. Comer. Right.
    Mr. Gaynor [continuing]. Wildfire disasters, it's going to 
be about mass care. What do you, you know, how do you move 
those people? How do you shelter those people? How do you keep 
them safe?
    So, you're moving them out of the threat of a wildfire, but 
you don't want to put them into a bigger threat of a congregate 
sheltering operation. So, all those considerations, all those 
frameworks we provide to state and locals so they can update 
their plans.
    Mr. Comer. Well, keep up the good work.
    Mr. Chairman, I yield back.
    Mr. Rouda. Thank you, Ranking Member Comer.
    It is now my privilege to recognize the chair of the full 
committee, the honorable Carolyn Maloney for five minutes of 
questioning.
    Mrs. Maloney. Thank you. And I want to thank so much 
Chairman Rouda and the ranking member for calling this, and a 
very special welcome to my colleague from the great city of New 
York, Nydia Velazquez. I had the honor of joining her, going to 
Puerto Rico to review FEMA's work on the island and, of course, 
have been watching all that you have done in New York.
    It was shortly after the first time you testified before 
this committee, by that afternoon, at our request, you had 
declared New York a disaster zone, thank you, and shortly after 
that, the President declared the entire country a disaster 
zone.
    But one of the areas where we continue to have challenges 
is the shortfalls in PPE during a disaster. We couldn't get PPE 
in New York and our medical professionals were going to work in 
garbage bags. At one time, one hospital had 250 people out sick 
because I would say they didn't have the right protective 
equipment and I certainly don't want to ever see that happen 
again.
    In response, New York started manufacturing our own PPE 
because we could not get it and our supply chain, our foreign 
developers wouldn't send it to us or they didn't have it. And 
we had four manufacturing plants we set up. They are now in the 
process of disbanding them.
    I personally believe that we should never be dependent on 
other countries for our PPE; we should manufacturer a certain 
portion of that here in our country. And I have put in a bill 
that would require that 35 percent of our Strategic National 
Stockpile be manufactured in America and that we give tax 
breaks and incentives to our manufacturers so that we can 
prepare a certain percentage of PPE here in our own country so 
that people will not die or become sick because they could not 
have access to it.
    I would like to send a couple of this proposal to you and 
your team to look at and to get back with us with your 
suggestions of whether or not it should be strengthened or how 
it should be changed or any other ideas that you have.
    And I would also like to call upon Ranking Member Comer to 
take a serious look at it. I also serve on the subcommittee 
that later that is looking at this issue and other things with 
Jim Clyburn, who is chairing it, but very telling, both 
Republicans and Democrats, have called for manufacturing PPE 
here in our own country. I think it could be a goal that we 
should all support.
    But I do want to get back to the supply chain with a few 
questions. One of your internal documents from FEMA's Supply 
Chain Stabilization Task Force for at least in June, show that 
the task force was projecting critical shortages of more than 
30 million N95 respirators and a hundred million gowns in July. 
These projections were developed before the recent surge that 
we are now seeing in coronavirus cases in our country, so the 
situation is likely much worse. And I think it point to the 
need that we should have some production here at home.
    So, Administrator Gaynor, yes or no, does the 
administration now have updated projections of supply and 
demand for mass gowns, gloves, and other supplies for the rest 
of the year?
    Mr. Gaynor. Ma'am, I think if I could just give a more 
detailed answer because it----
    Mrs. Maloney. OK. Certainly.
    Mr. Gaynor [continuing]. Gives some context----
    Mrs. Maloney. OK.
    Mr. Gaynor [continuing]. To all these numbers.
    Mrs. Maloney. Go right ahead.
    Mr. Gaynor. And I thank you for--we would be happy to look 
at that proposal and give it technical assistance, and I think 
you're right on about how critical PPE is to national security 
and making it here is important, so I applaud you for taking 
that initiative.
    Mrs. Maloney. And it is life-saving----
    Mr. Gaynor. Absolutely.
    Mrs. Maloney [continuing]. Absolutely life-saving, and to 
think that our essential workers were going to the frontline of 
this war against the virus not with the equipment they needed 
to protect themselves. It is outrageous.
    We should at very least, be able to ensure that our medical 
professionals, every worker, janitors, administrators, nurses, 
technicians, have the protective equipment they need.
    Mr. Gaynor. Yes, ma'am. And I agree, it's about life-saving 
and minimizing suffering. And I think we're in a much better 
place today than we were back in March and April, and for 
context, you know, the majority of PPE, so whether it's mass 
gloves, gowns, not made in the U.S.
    There's more made in the U.S. now than there was a couple 
of months ago. And N95 masks, we're making those today. 
Companies like 3M, Moldex, Honeywell, O&M Halyard all have 
either increased their production or started new production, 
like Honeywell.
    So, we get healthier every day. N95 masks is like the 
premium standard that everyone wants, and we realize that, and 
so as we move through increased production, you know, we will 
close that gap. And just, again, just for what we, how we see 
supply and demand, we recently pulled, talked one-to-one to all 
the state emergency manager directors about how much PPE they 
have on hand, and for the most part, every state has a 60-, 90-
, 120-day stockpile, which is a really great statistic.
    Hospitals have done the same, have went out bought PPE and 
stockpiled it and, again, we track this day-by-day. I have Rear 
Admiral Polowczyk who works on the Supply Chain Task Force, 
that this is his sole job, to make sure that we fill all the 
requests from states when we see a PPE shortage and, again, 
it's one of the things that we've been doing from day one.
    Mrs. Maloney. Unfortunately, my time has expired. I request 
to Chairman if I could submit questions to him in writing and 
that we can continue this conversation going forward, and I 
yield back.
    Mr. Rouda. Thank you, Madam Chair.
    The Chair now recognizes the gentlelady from New York, 
Representative Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman, and Ranking Member. 
I really appreciate the opportunity to be here today to ask the 
administrator some questions regarding Puerto Rico.
    As a Puerto Rican woman who has most of my family in Puerto 
Rico, I care deeply, and the fact that Puerto Rico has been 
facing a financial crisis, Hurricanes Irma, Maria, earthquakes, 
and now the pandemic. Puerto Rico has a surge on infections 
that is one of the highest, if not the highest in the mainland.
    So, today, AP has a story and it says, Thousands in Puerto 
Rico still without housing since Maria. It is great to hear you 
as to how much money has been obligated, but my question is, 
why is it that thousands of families in Puerto Rico still do 
not have a home, especially during this hurricane season?
    Mr. Gaynor. Yes, ma'am. So, we have, first of all, our 
commitment, FEMA's commitment to Puerto Rico, I think, is 
demonstrated by the number of employees we have on the ground 
today, more than 2,000 FEMA employees----
    Ms. Velazquez. And I recognize that, sir.
    Mr. Gaynor. Yes, ma'am. But that----
    Ms. Velazquez. I really appreciate the great work and the 
staff of FEMA. I was there, I have been there like three or 
four times. I am not questioning that.
    I am questioning the fact that since Maria, still, there 
are thousands of families who might be confronting another 
hurricane and they don't have any place to go.
    Mr. Gaynor. Yes, ma'am. So, this has been a partnership 
from the beginning. I think the partnership with Puerto Rico, 
the Governor and her staff, has never been stronger. And 
there's no easy, simple answer. It is a partnership between 
FEMA, who does temporary work to keep people in their homes and 
it is a partnership with HUD to do permanent work on houses. 
So----
    Ms. Velazquez. Excuse me, reclaiming my time.
    And it is a reality that HUD has imposed certain 
requirements that have not been asked from any other locality 
in the Nation. And so, it is a very difficult task for them to 
be able to repair, to make the repairs on those homes.
    So, let's talk about Vieques; Vieques, where the Navy was 
operating, the U.S. Navy for so many years until finally they 
have Vieques and left behind an environmental degradation. 
There was a commitment to clean up Vieques and no one can 
question the fact that in Vieques, we have the highest rate of 
cancer compared to any other municipality in Puerto Rico.
    So, there might be a correlation between the fact that 
bombs were exploded there and the health of the people of 
Vieques. So, seven weeks, seven months ago, money was 
appropriated, approved for a hospital that was promised to the 
people of Vieques and this happened after the speaker called a 
meeting between FEMA, myself, Alexandria Ocasio-Cortez, the 
CHC. A young lady, 16 years of age, lost her life because they 
don't have a hospital and here, we are seven months later.
    Transportation between the people of Vieques to the main 
island to get health care services is impossible because it is 
so poor that the infrastructure and the vessels are not 
reliable. So, given the fact that what we have is low-income 
people living in Vieques that are cutoff from the main island, 
with the COVID pandemic, what are we saying to the children and 
the elderly in Vieques, seven months after the money was 
approved?
    Mr. Gaynor. Yes, ma'am. So, early on FEMA built a temporary 
hospital. We actually----
    Ms. Velazquez. I know, I have been there.
    Mr. Gaynor. Yes, ma'am. But $4.1 million dollars to build a 
temporary hospital. We'll continue to fund that until we begin 
to fund the permanent hospital, which has been funded to almost 
$40 million, $39.5 million to fund a new hospital.
    That process is underway, and we are committed to make sure 
that there is health care for those living on Vieques that need 
it.
    Ms. Velazquez. Sir, FEMA has been telling me this for so 
long. Seven months ago, the money was approved.
    Mr. Gaynor. Yes, ma'am.
    Ms. Velazquez. Why is that difficult to break ground in 
Vieques that we send a message to the people of Vieques that 
their lives matter?
    Mr. Gaynor. Yes, ma'am. I mean, so, again, it doesn't 
happen overnight. So, there's design, there's environmental 
issues, and, again, we do this in partnership with the 
Government or the municipality of Vieques. This is just not 
FEMA building the Hospital; this is actually the local 
government building the hospital and we're----
    Ms. Velazquez. But what are you doing to provide capacity 
and technical assistance so that they could get their act 
together?
    Mr. Gaynor. We are.
    Ms. Velazquez. What are you?
    Mr. Gaynor. Through the Governor of Puerto Rico, COR3 was 
our partner, and the many Governors across the--or the many 
mayors across Puerto Rico to include the mayor of Vieques, we 
are providing assistance today.
    Ms. Velazquez. I know. I talked to the mayor last Friday.
    Mr. Gaynor. Yes, ma'am. But it is a partnership and to 
build a forty-million-dollar hospital does not happen 
overnight. But we are committed to make sure that we have 
adequate health care on Vieques as long as it takes until----
    Ms. Velazquez. We are the most powerful country in the 
world and whenever there has been natural disaster in other 
countries, we move Federal assets to make it happen.
    Make it happen to the people of Vieques because they serve 
a purpose in terms of our national security by having the Navy 
operations there. They deserve the fire, the power and fire of 
the United States. The will, if there is a will, we can do it.
    Thank you, Mr. Chairman.
    Mr. Rouda. Thank you. And I support the comments from the 
gentlelady from New York regarding the Americans in Puerto Rico 
still in desperate need of help.
    The Chair now recognizes myself for five minutes of 
questioning.
    Administrator Gaynor, there has been a lot of discussions 
about the pandemic, the challenges facing FEMA as we enter into 
the hurricane season and the wildfire season. I just want to 
start off with a simple question.
    Does FEMA get this? Do you have America's back as we go 
into these challenges over the next few months?
    Mr. Gaynor. Well, sir, I hope we've demonstrated over many 
years that FEMA is an organization that's committed to the 
safety of America and the response to those most in need after 
a disaster.
    And for context, since we have been responding to COVID-19, 
early on, we responded to a hurricane or an earthquake in 
Puerto Rico. We responded to flooding in Michigan. We responded 
to tornados in southern states.
    We're ready every day. There's no doubt that COVID-19 makes 
this more complicated----
    Mr. Rouda. But you are confident that you have got this?
    Mr. Gaynor. Sir, this is not just FEMA responding; this is 
Whole-of-Government response.
    Mr. Rouda. I understand.
    Mr. Gaynor. I have many partners----
    Mr. Rouda. But you guys are the tip of the spear and that 
is why I am encouraged to hear you say that, because that is 
what America wants to hear. They want to hear that FEMA is 
ready to take on these challenges.
    Mr. Gaynor. Yes, sir.
    Mr. Rouda. Let me ask you a few other questions here. I 
want to focus on the wildfire season, because it is of 
particular interest to my home state of California and, of 
course, other western states, such as Oregon and Washington, 
who could be facing frequent, severe, and life-threatening 
wildfires.
    How many wildfires is FEMA currently prepared to respond 
to?
    Mr. Gaynor. Yes, sir. Well, we issue, I'm sure you're 
familiar with FMAG's Fire Management Assistance Grants. We've 
issued a host of, I don't know the number off the top of my 
head, but we've issued a host of those grants and the purpose 
of those grants is to get early intervention when a fire 
outbreaks so it doesn't turn into a major disaster.
    So, we have, typically in a year, hundreds of FMAGs, again, 
intervening early on----
    Mr. Rouda. Right.
    Mr. Gaynor [continuing]. So, it doesn't get out of control.
    Mr. Rouda. But even with that being said, there has to be 
some sense that you are prepared for more major wildfires 
during the season.
    Do you have an estimate as to what those anticipated 
numbers might be?
    Mr. Gaynor. I can't give you what the forecast for are; I'm 
not sure that one exists. But we are an all-hazards agency, so 
we're ready for not only wildfires, hurricanes, tornados, you 
name it, to include our response and Federal coordination of 
COVID-19.
    I have a tremendous work force that works for me and I have 
many great partners.
    Mr. Rouda. I know you do. You have got great partners and a 
fabulous work force at FEMA. I know that everyone is fully 
committed and for that, America is grateful.
    One of the things that I would like to ask you about is 
evacuation orders; again, I am kind of focused on wildfires 
here because of a particular interest to my home state. Unlike 
other major disasters, along the lines of hurricanes, where we 
have the ability to plan for evacuations, we don't necessarily 
have that advanced warning when it comes to wildfires.
    So, in an effort to prevent the spread of COVID-19, what 
type of screening does FEMA anticipate having in place for 
evacuees due to wildfires to make sure that they are not going 
into shelters where potentially being asymptomatic or infected?
    Mr. Gaynor. Yes, sir. And, again, just some context, the 
way a response works the best is when it's locally executed, 
state-managed, and federally supported; so, all of those 
elements working together. So, I was a local emergency manager 
for seven years, I was a state emergency manager for four 
years, and now I am the Federal administrator.
    All those things have to work together and its levels. We 
don't--so, I'm going to use my time as a local emergency 
manager. I'm responsible, as a local emergency manager, I'm 
responsible for all the hazards and response plans at the local 
level.
    Mr. Rouda. Yes. And I am just talking testing, I just want 
to know about testing right now.
    Mr. Gaynor. OK.
    Mr. Rouda. So, if you have infected individuals going to 
shelters and it is FEMA's position that that is a 
responsibility of the state or the local municipalities, yet we 
don't have sufficient testing in place, how is FEMA going to 
address the spread of COVID-19 in shelters if there is not 
adequate testing available?
    Mr. Gaynor. So, again, sir, local and states have plans to 
have screening, testing, or not use non-congregate, or 
congregate shelters----
    Mr. Rouda. So, the responsibility in FEMA's mind and in the 
administration's, mind is that it does sit with the state and 
local municipalities to have appropriate testing to ensure that 
shelters are not being infected?
    Mr. Gaynor. Again, this is an all-of-America response. So, 
we're partners in all of that----
    Mr. Rouda. I understand.
    Mr. Gaynor [continuing]. And so, if there's a shortfall in 
a local government or a shortfall at the state, a tribe, or 
territory, FEMA will address that. So, we provide frameworks 
and guidance, technical assistance.
    I have 10 regions out there who coordinate plans for those 
states in each region. We have the Federal Interagency 
Operational Plan that lays out how----
    Mr. Rouda. Let me ask you one more question here just 
because we are limited time. In 2019, President Trump cut 
FEMA's budget, which often supports state's tasking with 
fighting wildfires.
    Does FEMA have the financial resources to support states 
like California in their efforts to meet the response and 
recovery challenges associated with the anticipated wildfires 
of the upcoming year?
    Mr. Gaynor. Yes, sir. Great question.
    And I want to thank Congress for passing supplementals that 
allowed FEMA to double its capacity for resources funding. So, 
typically, we would start a, I will use hurricane season, a 
hurricane season year with about $45 billion in the Disaster 
Relief Fund.
    Due to the efforts by the administration and Congress, 
Congress passed another 45, nearly $45 billion in assistance 
for COVID-19 response. So, today, I spent about $8.5 billion, 
that's just FEMA alone, and I have about $70 billion in the 
DRF, probably twice as much that I would have in any other 
season.
    So, we are responding to COVID-19, we are responding to 
earthquakes and tornados. We're doing recovery, at the same 
time, we are doing a tremendous recovery in Puerto Rico, and 
we're ready to respond to anything that's in front of us.
    And, again, thanks to Congress, you have fully funded us to 
make sure that we are ready for whatever disaster comes to us.
    Mr. Rouda. Well, Administrator Gaynor, thank you so much 
for coming in. I have to go vote, so I am going to turn the 
chair over to Representative Speier, but I do appreciate you 
taking the time to come in.
    Your job, I do not think anyone in America envies the 
challenges that are facing you, and we are very appreciative of 
you and your entire team's efforts to try to keep America safe 
during this time.
    At this time, the chair will recognize Representative 
Plaskett from the United States Virgin Islands for five minutes 
of questioning and I will allow Representative Speier to come 
up and take over the chair. Thank you.
    Ms. Plaskett. Thank you very much to my colleague, Mr. 
Rueda. This has been an excellent hearing thus far.
    And, Mr. Gaynor, thank you so much for coming before 
Congress and for giving us an update. I know that you all have 
so much work to do. It is a tremendous task ahead for all of 
us.
    I appreciate the COVID-19 pandemic operational guidance for 
the 2020 hurricane season that FEMA has prepared, but I wanted 
to know, I would appreciate further details on your plans for 
the Virgin Islands if it were to be struck by another hurricane 
this year.
    As you are aware, our hospitals are still damaged and not 
able to operate at full capacity. Our schools, businesses, 
hotels are still being repaired.
    In recent weeks, we have also seen exponential growth in 
COVID infections here in the territory, unfortunately.
    How would FEMA plan to provide non-congregate sheltering 
after a storm in the Virgin Islands, especially if COVID cases 
continue to grow here in the Virgin Islands?
    Mr. Gaynor. Yes, ma'am, thank you. And thank you for your 
support on USVI. We do appreciate it.
    And so, there's a number of questions and I will try to get 
to all of them. I actually was in the USVI, I visited all three 
islands in early January. I met with the Governor and the team 
to make sure that we were addressing all the issues that the 
territory was experiencing, to include, at the time was getting 
schools reopened. And through a great partnership with the 
Governor and the team, we drove that forward.
    I actually placed one of my most talented Federal 
coordinating officers down there to lead that effort. Today, in 
preparedness for hurricane season and looking back at the 
lessons that we learned from 2017, we have commodities on all 
three islands. We have more commodities on the continental U.S. 
We have more commodities on Puerto Rico than we ever had 
before.
    When it comes to COVID-19, we've been working with, again, 
with the Governor and the team building surge capacity to make 
sure if a hospital runs out of capacity, that they have surge 
capacity, make sure they have adequate ventilators, and, again, 
if there's a need to shelter, we are working with the territory 
to make sure that they have all the capability that they 
require.
    Ms. Plaskett. And what is that capability that they have 
discussed with you, in terms of non-congregate sheltering after 
the storm, what is the plan?
    Mr. Gaynor. I would have to talk to the FCO and the Virgin 
Islands emergency manager to see what specifics they have down 
there, but if you allow me, I'll followup and get you a detail 
of what the territory's plan is for that and how we're 
supporting it.
    Ms. Plaskett. Thank you.
    You talked about surge capacity in terms of COVID. And as 
you know, everyone is concerned with PPE funding. The President 
has stated that this response was preeminently the 
responsibility of the Federal Government.
    In the Virgin Islands, we have learned that FEMA has 
decided to Plexiglass is not eligible for reimbursement under 
the Public Assistance Program.
    Why does FEMA feel it is not responsible for reimbursing 
the costs for protective equipment like Plexiglass, which adds 
an emergency protective measure? Do you all not see it as an 
emergency protective measure?
    Mr. Gaynor. Ma'am, that's the first I've heard of that 
issue; again, I will personally look into that and get back to 
you with an answer.
    Ms. Plaskett. I really appreciate that.
    One of the other things that I wanted to ask you about was 
in terms of cost share. Now, I understand that we probably 
won't agree on how much is the Federal Government's 
responsibility and how much is the state, but absent that, I 
would appreciate a commitment from you that in a short period 
of time within, you know, two weeks or so, that you will 
jointly issue guidance with HHS to much more clearly explain 
what activities will be the responsibility of HHS and which 
will be the responsibility of FEMA.
    I know that you all are working on an MOA. This pandemic 
continues, ravaging stronger than ever, and Congress has 
appropriated 45 billion for the Disaster Relief Fund under the 
CARES Act, which was supplemented funding for your agency's 
response effort.
    Can I get an, do you have an update or is there a 
commitment from you with regard to the--?
    Mr. Gaynor. Yes, ma'am. You are absolutely correct that, 
you know, we have a bulletin for COVID response, and we have a 
bulletin for natural disasters under, you know, hurricane 
season, as an example. And we're in the process of merging 
those two, so it's a little bit clearer to jurisdictions under 
the COVID-19 major or on a potentially new major for a 
hurricane or tropical storm, so we are working out those 
details.
    You know, one of the challenges is there's lots of 
supplemental funding across the Nation for lots of different 
things and we want to make sure it's clear and people 
understand how to use it so when the accounting happens, we 
don't have to clawback any money or have duplication of 
benefits. So, we want to be deliberate about that and when 
there's an update, I'll absolutely share it with you.
    Ms. Plaskett. You know, I am just hoping that like the 
other issues that we have had, particularly the STEP Program, 
that that guidance will be sooner, rather than later, so that 
our government has a clearer delineation of what the guidance 
is.
    And with the Chair's indulgence, I would ask Mr. Gaynor, I 
am really looking for you, I understand that you have recently, 
you had a commitment from you personally, but any outstanding 
issues with closing out the STEP Program in the Virgin Islands 
would be resolved by August of this year.
    Is FEMA still on track to honor that commitment, to resolve 
the outstanding issues with closing out the shelter and 
temporary essential power, the STEP Program by next month?
    And there are other questions that I will submit for the 
record and after your response, I yield back. Thank you so 
much.
    Mr. Gaynor. Yes, ma'am. On STEP, we've had numerous 
conversations with the territory on it and I think from our 
point of view, it really is, and we have provided technical 
support and assistance, as required, and, you know, that STEP 
Program, Public Assistance Program is reimbursable for eligible 
expenses. I think the issue now is between the government of 
Puerto Rico and the vendors that they hired, making sure all 
that paperwork has been submitted, make sure it is proper, and 
then when it's proper, we'll absolutely reimburse for eligible 
costs for the STEP Program. But I think for right now, the ball 
is in the Government's court with the contractors that they 
hired.
    Ms. Plaskett. So, I am not asking about Puerto Rico; I am 
asking about the Virgin Islands.
    So, my understanding is that the local government of the 
Virgin Islands has given you all of the information and right 
now, it is for FEMA to finalize the outstanding issues so that 
it can be resolved by August.
    Mr. Gaynor. Again, ma'am, I may have a little bit of dated 
information, 30, 45 days old, but the last up check I got was 
still waiting on paperwork so we could actually, you know, we 
have no problem with identifying the funding to pay out on it; 
it's really making sure all the costs are eligible and 
reasonable and proper and I will absolutely pay on those, you 
know, when that criteria is met.
    But from my latest understanding, and I'd be happy to go 
back and get an update on it, but my latest understanding is 
that the territory and its vendors are still working those out.
    Ms. Speier.
    [Presiding.] I thank the gentlelady.
    Ms. Plaskett. Thank you, Madam Chair.
    Ms. Speier. Mr. Gaynor, we are very appreciative of you 
being here today and you have one of the most profound tasks, I 
think, of anyone in the Federal Government right now with the 
exception of Dr. Fauci.
    I would like to speak about the DPA. I am really astounded 
that we have not taken full advantage of the DPA. I can tell 
you that in California in my district, they are grappling with 
that problem on a daily basis and are always in need.
    So, how can we better use the DPA to get the resources we 
need? This particular pandemic is going to be with us for 
another year.
    Mr. Gaynor. Yes, ma'am. And I've said this publicly a 
couple of times before.
    So, to date, FEMA, just FEMA alone, we've used the DPA at 
least 14 times, and then there's other agencies that have other 
DPA authorities that have used it. One of the things early on, 
March and April, as I understand the environment we were 
operating in and one of--and I have probably the finest supply 
expert in the world, Rear Admiral Polowczyk, that works on this 
every day.
    But we wanted to make sure that we did no harm to the 
existing landscape, to make sure that if you----
    Ms. Speier. What do you mean by do no harm?
    We have people dying in this country.
    Mr. Gaynor. Yes, ma'am. And I'll give you an example. 
Everyone needed more N95 masks. The material that you use to 
make N95 masks is the same material that you make a gown with, 
so they stopped making gowns and they make under more N95 
masks, and then we have a gown shortage.
    So, all these unintended consequences, we want to be 
thoughtful and meaningful about it. When we actually used it, 
we used it in a deliberate way to get the best result.
    Ms. Speier. So, let me see if I understand.
    You have the authority to exercise DPA as the director of 
FEMA?
    Mr. Gaynor. Yes, sir--yes, ma'am.
    Ms. Speier. That is fine.
    So, you can call upon manufacturing companies that don't 
engage in this kind of work to do this kind of work, correct?
    Mr. Gaynor. We can and we have. And there are many 
manufacturers and I'll just use, I listed some earlier, but 
there are new manufacturers in the United States now that had 
not produced N95 masks. There are producers like 3M that have 
increased their production. There are new manufacturers like 
Honeywell and Moldex that have started new production lines.
    So, it is happening, and, again, back to, for context, 
global competition for all of these medical supplies, 90 
percent of medical supplies not made in the U.S. And this is a 
national security issue.
    Ms. Speier. It is.
    Mr. Gaynor. Our goal is to move those critical supplies 
that save lives, minimize suffering, back to the United States, 
and we are doing that.
    One of the challenges----
    Ms. Speier. All right. Let me----
    Mr. Gaynor. It's not a switch; it's a rheostat. So, it 
takes time to make all that happen.
    Ms. Speier. Here is my point, though----
    Mr. Gaynor. Companies----
    Ms. Speier. Excuse me, sir. Let me just make this point.
    I have companies in my district that took advantage of PPP, 
that is the Payroll Protection Plan. They got million-dollar 
loans to become the middleman in buying PPE from China.
    So, they actually bought N95 masks from China, brought them 
to the United States, and an 80-cent N95 mask, they were 
charging our Government $8 for and getting a Payroll Protection 
Plan loan on top of it. So, it has gotten so twisted and I 
think we are misusing the taxpayers' money when we don't do 
virtually all of that here in the United States.
    Let me move on to another----
    Mr. Gaynor. If I could just, again, give some more context, 
through the CARES Act, the Congress passed a billion dollars to 
increase production in the United States. So, our partners in 
DOD and DLA are working on a host of initiatives to increase 
production of pharmaceuticals, N95 masks, other----
    Ms. Speier. I appreciate that, but my hospitals are still 
clamoring for PPE. They are struggling to get it. They are 
paying high prices for it. It shouldn't have to happen.
    Mr. Gaynor. Yes, ma'am. Again, we're in a much better 
place. We still have a ways to go, but we have come a long way 
since March and April.
    I have no doubt that the prices are not what they once were 
pre-COVID at 70 cents a mask; those days are probably long 
gone. But, nonetheless, we get healthier every day, and I will 
just use N95 masks, whether we import a little bit more from 
overseas until we can catch up in the United States, but we 
have to build it in America and we have to make sure we just 
don't build it in America for a couple of years and forget 
about how important it is, but to fund those companies, those 
great American companies that are doing it for us today, for 
the long haul.
    And we are focusing on that, so we don't fall into this 
trap in five years or 10 years or 15 years. We want to make 
sure that we learn the lessons learned, the hard lessons 
learned, right, over the past five months, that we don't repeat 
those again.
    Ms. Speier. So, the price-gouging that is going on here in 
the United States, which is happening as well, you are saying 
those 70-cent N95 masks are long gone.
    Why should they be long gone if we can get the production 
up?
    And if we are paying U.S. companies now to do the 
production, why shouldn't they be providing those masks at 70 
cents a mask?
    Mr. Gaynor. I'm not an economist or a supply chain expert, 
but it is about a lack of supply and they're in high demand, so 
those prices go up.
    I'm not saying it is right or it's wrong; I think it's just 
the environment we live in and I think if you make it in 
America, it's probably going to cost a little bit more than 
making it in China, for example.
    And, you know, part of the way we live, we live in a ``just 
in time'' world where we really don't warehouse these things 
anymore; it's just, you know, we need it today and it comes 
from China tomorrow and we have it the next day.
    We need to change that dynamic to make sure that we are 
self-sufficient as a Nation, so we don't fall into this trap. 
And it's just not only PPE, it is all those other things that 
we really have to take a deep dive into to make sure the Nation 
is ready not only for the next pandemic or something that 
equals that stress on the Nation.
    Ms. Speier. All right. I think my time is sort of expired, 
but since I am the last person here, I am going to take 
advantage of asking you one more set of questions.
    Can I just ask you this straight out, do you believe in 
climate change?
    Mr. Gaynor. Ma'am, I believe that, well, first of all, I'm 
not a scientist, but I believe that the climate has changed. 
And I'll just use hurricanes, and you can look back at the 
history of hurricanes over the last 75 years or more, more 
frequent, more costly, more damage.
    So, the climate has changed, but FEMA's role in this is no 
matter the cause of a disaster, so whether it's a hurricane or 
a tornado, our response and our responsibility to the Nation is 
to respond to all those----
    Ms. Speier. Precisely.
    Mr. Gaynor. Yes, ma'am.
    Ms. Speier. So, it would make sense, would it not, that you 
would have climate change as something that you would consider 
in your strategic planning, possibly to improve your ability to 
assist when these calamities occur.
    Mr. Gaynor. And you're referencing the 2018 strategy, 
strategic plan?
    Ms. Speier. Yes.
    Mr. Gaynor. Yes, ma'am. Well, we did not reference climate 
change, or we didn't even reference any----
    Ms. Speier. Well, you removed it is my understanding.
    Mr. Gaynor. Well, I wasn't here for 2017, so I can't speak 
to that.
    But what I do know is, you know, we didn't even speak to 
hazards in that plan. It was really more of a thought piece 
about what is important to the Nation.
    And let me just give you, again, context--I was a state 
director--FEMA requires every state to have a hazard mitigation 
plan that addresses changing conditions; things like that 
demographics, land-use, infrastructure, climate in that plan. 
So, we are fully embraced in making sure we understand all the 
things that impact readiness in states for innocent locals and 
readiness as a Nation.
    So, it may not be in there, but, again, we----
    Ms. Speier. It should be. It has to be considered, correct?
    Mr. Gaynor. Well, we consider it.
    Ms. Speier. The last question I have deals with whether or 
not you are training those who are going to be called into the 
work force during the fire season, are you training them in 
virus-containment techniques, in terms of their interactions 
with each other on the firelines?
    Mr. Gaynor. Well, I can't speak specifically to 
firefighters on a fireline, but what I can say is the CDC has 
numerous guidelines about how to keep safe when dealing with 
COVID-19. So, whether you're a firefighter or a police officer 
or a nurse in a hospital, there is guidance out there that you 
can use to keep yourself safe.
    And I'll just give you the four basic things that I think 
everyone needs to do, whether you're on a frontline firefighter 
or just at home, you know, watching TV.
    Wear a mask. If everyone did that, we would continue to 
flatten the curve.
    Keep your hands clean. Every time you walk by the Purell 
pump, wash your hands. Don't wear gloves. It doesn't help.
    Third is social distancing 6 feet away or more.
    And, last, don't go into crowded bars and don't go into 
crowded restaurants.
    If we could do those four basic things, every American, 
because this is an all-America response, can work toward 
beating COVID-19 as fast as we can. And I got those four from 
Dr. Fauci, so I'm proud to quote him on that.
    Ms. Speier. Well, Mr. Administrator, thank you.
    It is important for the message to get out about gloves, 
too. Every time I see people with gloves on, I worry that they 
don't appreciate that they are actually making things worse for 
themselves.
    Mr. Gaynor. They are.
    Ms. Speier. So, thank you, again, very much for being here 
today.
    In closing, I want to thank you, again, for your remarks 
and your willingness to engage with us.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response, and I ask that you promptly 
respond as you are able.
    This hearing is adjourned.
    Mr. Gaynor. Thank you, ma'am.

                                 [all]
</pre></body></html>
